�
�




                            UNITED STATES DEPARTMENT OF EDUCATION

                                               OFFICE OF INSPECTOR GENERAL




MEMORANDUM
                                                                                              JUL 3 1 2003
TO:	           Sally Stroup
               Assistant Secretary for Postsecondary Education

               Theresa S . Shaw

               Chief Operating Officer

               Federal Student i


FROM:	         Helen Lew '                1lw 141
               Assistant Inspector General for Audit

SUBJECT :	     Final Audit Report
               Oversight Issues Related to Guaranty Agencies' Administration of the Federal
               Family Education Loan Program Federal and Operating Funds
               Control Number ED-OIG/A05-D0010


Attached is the subject final report presenting our issues and recommendations resulting from
our audit of Guaranty Agencies' Administration of the Federal Family Education Loan Program
Federal and Operating Funds . An electronic copy has been provided to your Audit Liaison
Officer. We received your comments generally concurring with the recommendations in our
draft report.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
will be monitored and tracked through the Department's automated audit tracking system . ED
policy requires that you develop a proposed Corrective Action Plan (CAP) in the automated
system within 60 days of the issuance of this report . The CAP should set forth the specific
action items, and targeted completion dates, necessary to implement final corrective actions on
the findings and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any reports unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress .

We appreciate the cooperation given us during this review . If you have any questions, please
call Richard J. Dowd, Regional Inspector General for Audit at (312) 886-6503 .

Attachment

                                     400 MARYLAND AVE., S.W . WASHINGTON, D.C . 20202-1510


             Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation .

               Oversight Issues Related to Guaranty Agencies'
               Administration of the Federal Family Education
                  Loan Program Federal and Operating Funds




                                  FINAL AUDIT REPORT

                                            ED-01G/A05-D0010

                                                July 2003





Our mission is to promote the efficiency,                       U.S. Department of Education
effectiveness, and integrity ofthe                              Office of Inspector General
Department's programs and operations .                          Chicago, Illinois
                             NOTICE

  Statements that managerial practices need improvements, as well as other
conclusions and recommendations in this report represent the opinions of the
Office of Inspector General . Determinations of corrective action to be taken
     will be made by the appropriate Department of Education officials .

In accordance with the Freedom of Information Act (5 U.S.C . § 552), reports
   issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
               therein is not subject to exemptions in the Act.
�




Table of Contents

              Oversight Issues Related to Guaranty Agencies' Administration
              of the Federal Family Education Loan Program Federal and
              Operating Funds

              Control Number ED-OIGIA05D0010

                                                                                                                                                                                                          Page


Executive Summary . .. .. .. .. . . . .. .. . . . . . . . .. .. .. .. .. .. . . . .. .. .. .. .. .. .. .. .. .. .. . . .. .. .. . . .. . . .. .. . . .. .. . . .. . . . . . . . . .. .1


Audit Results


       Issue 1 - FSA's Monitoring of Guaranty Agencies Needs Improvement .. .. .. .. . . .2


       Issue 2 - Instructions on Federal Assets and Usage Fees Needed. . . .. .. . . . .. .. .. . . . . . . .6


Background .. .. .. .. . . . ..                    .. .. .. . . . . . . . .. .. . . . . . .. .. .. .. . . .. .. . .. .. .. .. .. .. . . .. .. .. .. . . . . .. .. .. .. .. .. .. .. . . . .. .. . . . .. . . . :8


Audit Objective, Scope, and Methodology. .. .. . . . . . . . . .. .. . . . . .. .. .. .. . . . . .. .. .. .. . . . .. .. .. .. .. .. . . .. .. . .8


Statement on Management Controls .. .. .. .. . . . .. .. .. .. .. .. .. .. . . .. .. .. .. .. .. .. .. .. .. .. . . . .. .. .. .. .. .. .. .. . .. .9


Attachment A - OIG Reports For Guaranty Agencies Audited


Attachment B - Department Comments to the Draft Report

�
�




                                 EXECUTIVE SUMMARY



The objective of our audit was to form an overall conclusion on the adequacy of the U.S.
Department of Education's (Department) oversight of guaranty agencies' establishment and
operation of the Federal Family Education Loan (FFEL) program Federal and Operating Funds .
We concluded that Federal Student Aid (FSA) needs to improve its monitoring process and the
Office of Postsecondary Education (OPE) needs to issue instructions to recognize the ownership
of federal assets and related usage fees paid. Our conclusion is based on the issues identified in
the Office of Inspector General (OIG) audits ofnine guaranty agencies' compliance with the
Higher Education Act of 1965, as amended (HEA) and federal regulations governing the
establishment and operation of the Federal and Operating Funds. The OIG issued individual
audit reports to each guaranty agency . A list of the guaranty agencies and the report dates is
attached . The OIG also issued two additional audit reports to the Department that discussed
issues identified while auditing two of the guaranty agencies .

FSA Financial Partners conducted program reviews at eight ofthe nine guaranty agencies the
OIG audited. We compared the program review results to the OIG audit report findings . Based
on our comparison, we identified two issues the Department should address.

"	 The FSA Financial Partners program reviews had objectives similar to the OIG audits, but
   the program reviews did not identify significant findings . Our analysis of the Financial
   Partners program review reports indicated that the length of its site visits averaged 4 .6 days.
   Based on our experience, this was not enough time to gain an understanding ofthe systems
   and adequately assess supporting documentation in the areas reviewed. We reviewed
   Financial Partners' guide for its current series ofprogram reviews and found that it was not
   designed to identify many ofthe findings disclosed in the OIG audit reports.

"	 Guaranty agencies have not properly documented federal assets or consistently calculated and
   paid usage fees. The Department has not specified how federal ownership of assets should be
   recorded or how usage fees should be calculated . OIG audits reported that two guaranty
   agencies did not adequately identify federal assets, two guaranty agencies developed their
   own usage fee calculation, and one guaranty agency did not pay usage fees to its Federal
   Fund. The OIG reported these issues to the Department in March 2001 at the completion of
   the first of nine audits .

We recommend that FSA revise the current program review guide to emphasize the finding areas
that were missed on the prior reviews, and allow sufficient time to complete testing. We also
recommend that OPE issue instructions to ensure that guaranty agencies treat federal ownership
ofassets and calculate usage fees consistently . FSA and OPE generally concurred with our
recommendations. We summarized their comments after each finding and also included them in
their entirety as Attachment B.
�




Control Number ED-OIGIA05-D0010
                                                                                                          Page 2



                                           AUDIT RESULTS



The objective of our audit was to form an overall conclusion on the adequacy of the
Department's oversight ofguaranty agencies' establishment and operation ofthe FFEL program
Federal and Operating Funds . We concluded that FSA needs to improve its monitoring process
and OPE needs to issue instructions to recognize the ownership of federal assets and related
usage fees paid. Our conclusion is based on the issues identified in the OIG audits of nine
guaranty agencies' compliance with the HEA and federal regulations governing the
establishment and operation of the Federal and Operating Funds .


Issue 1- FSA's Monitoring of Guaranty Agencies Needs Improvement

Financial Partners program reviews did not identify significant findings. The Department is
required to monitor entities participating in the FFEL program. The Department assigned the
monitoring of federal funds at guaranty agencies to the Financial Partners Channel ofFSA.'
During fiscal years 2001 through 2002, Financial Partners reviewed the establishment and
operation of the Federal and Operating Funds for eight ofthe nine guaranty agencies the OIG
audited. The objectives of Financial Partners program reviews were similar to those of the OIG
audits . However, the program reviews did not report significant findings included in the OIG
audit reports. Our analysis of the Financial Partners program review reports indicated that the
length of its site visits averaged 4.6 days. Based on our experience, this was not enough time to
gain an understanding of the systems and adequately assess supporting documentation in the
areas reviewed . We reviewed Financial Partners' guide for its current series ofprogram reviews
and found that it was not designed to identify many of the findings disclosed in the OIG audit
reports.

Monitoring entities' participation in federal programs is an important component of the
Department's overall management control process. The Office of Management and Budget
(OMB)2 and the General Accounting Office' require the Department to safeguard the integrity of
the programs .


1 Responsibility for FFEL program policy is assigned to OPE.

2 According to OMB Circular A-123, "Federal employees must ensure that government resources are used

efficiently and effectively to achieve intended program results. . . . Agency managers should continuously monitor

and improve the effectiveness of management controls associated with their programs ."

3 Under the section Control Activities in the General Accounting Office Standardsfor Internal Control in the

Federal Government, "Control activities occur at all levels and functions of the entity . They include . . .

performance reviews . . . and the creation and maintenance 6f related records which provide evidence of execution

of these activities as well as appropriate documentation."

�




Control Number ED-OIGIA05-D0010                                                                          Page 3

The Department's strategic plan contains a strategy under Objective 6.4 to improve program
monitoring .' Program monitoring, such as conducting performance reviews, is a management
control activity used to ensure compliance with laws and regulations and achieve intended
results .


Financial Partners program reviews at the guaranty agencies were not effective in detecting
instances of noncompliance. As part of monitoring guaranty agencies, Financial Partners
conducted program reviews during fiscal years 2001 and 2002 at the guaranty agencies audited
by the OIG. Financial Partners developed a program review guide for the reviewers to follow.
The program review guide included steps to review the guaranty agencies' establishment of the
Federal and Operating Funds, as well as related financial transactions to ensure compliance with
the HEA and federal regulations regarding operations of the Federal and Operating Funds.
Financial Partners issued reports summarizing the findings identified during its program reviews.
The OIG audited 9 of 36 guaranty agencies . We compared the results reported by Financial
Partners to the results reported by the OIG for eight of the nine guaranty agencies audited.
Financial Partners did not report the following OIG findings from six program reviews
conducted either before or during the OIG audits .


"   Four guaranty agencies understated the beginning balances of the Federal Funds by over
    $15.2 million;
"   Two guaranty agencies did not deposit about $550,000 in supplemental preclaims assistance
    payments received after October 1, 1998, into the Federal Funds;
"   Three guaranty agencies used about $17.2 million in federal funds for unauthorized purposes ;
"   Two guaranty agencies' cost allocation plans did not fully comply with federal regulations
    and/or OMB Circular A-87 while federal funds remained in the Operating Fund, and another
    guaranty agency could not support cost allocations made before October 1, 1998 ;
"   One guaranty agency did not comply with federal regulations prohibiting a guaranty agency
    to contract with the same entity to perform both default aversion activities and other
    guarantee servicing activities ;
"   One guaranty agency did not maintain and adequately update its standards of conduct to
    prevent and detect possible conflicts of interest with its directors, officers, and their
    immediate family members;
"   One guaranty agency overcharged its special services federal fund when allocating shared
    expenses and did not follow its cost allocation plan ; and
"   One guaranty agency's agreement for special services and guarantee responsibilities is
    unclear, and therefore, we could not determine whether the guaranty agency's actions were




4 The U.S. Department of Education Strategic Plan for 2002-2007 (March 7, 2002) contains Strategic Goal Six:
Establish Management Excellence throughout the Department ofEducation . Under strategic goal six is objective
6.4 (Modernize the Student FinancialAssistance programs and reduce their high-risk status) that states, in part,
"The Department will . . . improve technical assistance and increase program monitoring."
�
�




Control Number ED-OIGIA05-D0010                                                             Page 4

    those intended by the Department . Also, the Department did not recall excess reserves of
    about $103 million, which the agreement allows .

For the remaining three guaranty agencies audited, Financial Partners conducted its program
review at one guaranty agency after the OIG visited it, did not perform a program review at
another guaranty agency, and limited the scope of its program review at the last guaranty agency.
In all three instances, Financial Partners avoided duplicating OIG work. For these three guaranty
agencies, the OIG reported that

"   Three guaranty agencies understated the beginning balances of the Federal Funds by over
    $2.6 million;
"   Two guaranty agencies did not deposit supplemental preclaims assistance payments received
    after October l, 1998, into the Federal Funds. One eventually returned the payments and
    only owed the Federal Fund imputed interest lost;
"   Two guaranty agencies used federal funds for unauthorized purposes ; and
"   One guaranty agency's cost allocation plan did not fully comply with federal regulations and
    OMB Circular A-87 while federal funds remained in the Operating Fund, and overcharged
    the reserve fund for cost allocations made before October 1, 1998 .

While Financial Partners did not identify the significant findings the OIG reported, it did identify
some of the same findings as the OIG. Financial Partners reported findings and concerns related
to federal collections at seven guaranty agencies, the lack of usage fee payments at three guaranty
agencies, and the accuracy of data in the National Student Loan Data System at four guaranty
agencies . Financial Partners' site visits at the guaranty agencies averaged 4.6 days . Based on
our experience, this was too short to gain an understanding ofthe systems and adequately assess
supporting documentation in the areas reviewed. We do not mean to imply that the scope of a
program review should be as detailed as an audit. The OIG's work must comply with generally
accepted government auditing standards. However, the fact that Financial Partners did not
identify significant issues demonstrates that more time was needed.

Financial Partners' current review guide was not designed to identify all the findings that were
missed in prior program reviews. In January 2003, Financial Partners started a series of reviews
that will include each guaranty agency over the following two years. The purpose of these
program reviews is to ensure continued compliance with the HEA, regulations, and policy
directives governing the FFEL program. A program official indicated that the review teams will
spend approximately two weeks at each guaranty agency after completing preliminary work in
their offices. The new review guide is more detailed than the prior guide, but was not designed
to identify findings missed during the earlier reviews. It does not address the establishment of
the Federal and Operating Funds, or conflicts of interest between default aversion and collection
servicers.
�
�




Control Number ED-OIGIA05-D0010                                                          Pa e 5

Recommendations

We recommend that the Chief Operating Officer for FSA improve its monitoring process by

1 .1   Revising its current program review guide to emphasize the finding arer,s that were
       missed during the prior reviews .

1 .2   Allowing sufficient time to complete testing.

1 .3   Reviewing the 27 guaranty agencies the OIG did not audit to test their establishment of
       the Federal and Operating Funds.


Department Comments - FSA indicated that it disagrees with several statements in our report,
but generally concurred with our recommendations. It stated that it has performed program
reviews, including "Funds Reviews," and that the reviews are somewhat different in scope and
objectives and do not last as long as OIG audits . FSA is currently conducting another cycle of
comprehensive reviews ofall 36 agencies . Eighteen will be conducted in fiscal year 2003 and 18
in fiscal year 2004. The comprehensive reviews will be conducted over a two-week period at the
guaranty agencies, but the review team will perform pre-planning and request electronic data
before going on-site. FSA will determine the impact of extending the on-site review time, as it
may pose staffing and reallocation of duties issues . FSA will solicit assistance from the OIG to
revise and/or amend its current program review guide.

OIG Response - Although FSA disagreed with several statements in our report, no specific
areas of disagreement were discussed and its comments parallel the issues discussed in the
report . Our report acknowledged that program reviews had been conducted by FSA. FSA's
"Funds Reviews" were among those program reviews that we noted did not report findings
included in our subsequent audits . While FSA's revised program review guide will help future
comprehensive reviews, it will not be used in the 18 reviews FSA plans to complete by the end
of this year. Therefore, FSA should develop a plan to ensure all 36 comprehensive reviews cover
the additional tests added to the program review guide. FSA should also ensure that one ofthe
areas added to the guide covers the establishment ofthe Federal and Operating Funds for the
remaining 27 guaranty agencies the OIG did not audit. In determining the impact of extending
the on-site review time, FSA should consider that the additional testing necessary to review areas
missed in prior reviews and the establishment ofthe Federal and Operating Funds will require
more review time .
�




Control Number ED-OIGIA 05-D0010                                                                             Pa e 6

Issue 2 - Instructions on Federal Assets and Usage Fees Needed

Guaranty agencies have not properly documented federal assets or consistently calculated and
paid usage fees. OIG audits reported that two guaranty agencies did not adequately identify
federal assets, two guaranty agencies developed their own usage fee calculation, and one,
guaranty agency did not pay usage fees to its Federal Fund. The OIG reported these issues to the
Department in March 2001 at the completion of the first of nine audits .'

The Department has not issued sufficient instructions on proper recording or recognition of
federal ownership in assets or on calculating required usage fees. Management control standards
require the Department to ensure transactions are completely and accurately recorded in federal
programs .' The Department needs to ensure guaranty agencies apply the HEA and regulations
appropriately and consistently. In addition, OMB Circular A-123. states that agencies are
responsible for taking timely and effective action to correct deficiencies identified . The HEA
provides that nonliquid assets purchased or developed in whole or in part with federal reserve
funds are the property ofthe United States. The regulations at 34 C.F.R. § 682.420 (c) say that a
guaranty agency's Federal Fund must receive an amount representing the net fair value of the use
of the asset when those assets are used in guaranty and other activities .

Guaranty agencies did not apply federal regulations on federal assets and usage fees consistently .
One guaranty agency did not recognize federal ownership interest in its building and land, while
another guaranty agency did not reflect federal ownership of its building in its property records.
Regarding usage fees, the OIG reported that one guaranty agency did not pay usage fees to its
Federal Fund. The guaranty agency did not pay usage fees because it offered to purchase the
federal assets. A program official stated that the Department has not responded to guaranty
agency requests to purchase federal assets. The usage fee calculations for two guaranty agencies
that paid usage fees varied. One guaranty agency calculated its usage fee based on a percentage
of an asset's monthly depreciation expense. Another guaranty agency calculated its usage fee
based on square footage occupied, using market rental rates for comparable office space less
budgeted building maintenance costs.

The Department has not acted to provide guaranty agencies instructions on federally owned
property and related usage fees . In March 2001, we recommended that the Department
determine if it was in the Federal Government's best interest to sell its ownership interest in
assets held by guaranty agencies.' We also recommended that the Department develop a uniform
method to calculate usage fees because guaranty agencies are left to calculate fees without input

5 ED-OIG/A05-A0025, Audit of Great Lakes Higher Education Guaranty Corporation's Administration ofthe

Federal Family Education Loan Program Federal and Operating Funds, March 30, 2001 .

6 The section Examples ofControl Activities in the General Accounting Office Standards for Internal Control in the

Federal Government states, ". . . control activities help to ensure that all transactions are completely and accurately

recorded ."

7 ED-OIG/A05-A0025.

�
�
�
�




Control Number ED-OIGIA05-D0010                                                       - Page 7

or oversight from the Department. In response to our audit reports, the Department agreed to
issue guidance on the Department's approach to selling its ownership in assets held by guaranty
agencies by June 30, 2002, and to provide guidance on usage fees by May 31, 2002. The
Department has not issued guidance .

Without issuing adequate guidance, the Department has not ensured that federal ownership of
assets held by guaranty agencies is properly documented, has not addressed guaranty agency
requests to purchase federal assets, and has not developed a method for calculating usage fees to
ensure consistency .


Recommendations

We recommend that the Assistant Secretary for Postsecondary Education and Chief Operating
Officer for FSA

2.1    Issue instructions to ensure that guaranty agencies treat federal ownership of assets and
       calculate usage fees consistently . The instructions should address the following areas:

       (a)     Documentation of federal ownership in assets held by guaranty agencies,

       (b)     Procedures for purchasing the federal ownership in assets, and

        (c)    Specific methodology used for calculating usage fees.

2.2    Review each guaranty agency's compliance after the instructions are issued to ensure that
       guaranty agencies have identified all federal assets and appropriately reimbursed the
       Department .


Department Comments - FSA and OPE generally concurred with our recommendations . OPE
agrees that some generalized guidance should be issued; however, the methodology should be
flexible enough to address each agency's situation on a case-by-case basis. FSA stated it has
identified all federal assets held by the guaranty agencies and will ensure that each agency is in
compliance with any guidance OPE issues.

OIG Response -We disagree with OPE's position that instructions on federal ownership of
assets and usage fees should be generalized and flexible enough to work with each guaranty
agency on a case-by-case basis. Without a consistent methodology, the Department cannot
ensure equitable treatment ofthe guaranty agencies or provide guidance for independent public
accountants to accurately monitor guaranty agency transactions.
�




Control Number ED-OIGIA05-D0010                                                              Page 8
FSA stated that it has identified all federal assets at each guaranty agency; but our audit results
found that federal ownership may not be appropriately documented . To protect the taxpayer's
interest, it is important to issue instructions on proper documentation of federal ownership .

While OPE and FSA agree that instructions and guidance in these areas are necessary, it has been
three years since the regulations became effective . As time passes without guidance that
provides a uniform methodology for documenting federal ownership in assets and calculating
usage fees, it becomes increasingly difficult for guaranty agencies to correct past practices and
for FSA to monitor guaranty agencies' compliance .



                                       BACKGROUND

The Higher Education Amendments of 1998, enacted on October 7, 1998, required each guaranty
agency to establish a Federal Fund and an Operating Fund within 60 days. The final date for
establishing these funds was December 6, 1998 . Unless otherwise specified, the Higher
Education Amendments of 1998 were effective October 1, 1998 . The Department issued interim
guidance in January and November 1999, and published regulations relating to the Federal and
Operating Funds on October 29, 1999.

All funds, securities and other liquid assets of the guaranty agency's FFEL program reserve fund
were to be transferred to the Federal Fund, which is the property ofthe Federal Government .
The HEA required a guaranty agency to deposit revenue from specified sources into the Federal
Fund and also specified the uses ofFederal Fund assets . The HEA also specified deposits into
the Operating Fund and the general uses of Operating Fund assets . Except for funds transferred
from the Federal Fund, the Operating Fund is the property ofthe guaranty agency. If the
Operating Fund contains transferred funds owed to the Federal Fund, it may be used only as
permitted by the regulations, which prohibit certain uses of reserve funds.

Financial Partners conducted technical assistance site visits at guaranty agencies in fiscal year
2000 and program reviews during fiscal years 2001 and 2002 at the guaranty agencies audited by
the OIG. The technical assistance site visits provided assistance to the guaranty agencies in
establishing and maintaining the Federal and Operating Funds . The program reviews then tested
the guaranty agencies' compliance with the HEA and regulations in these areas.



             AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to form an overall conclusion on the adequacy of the
Department's oversight of guaranty agencies' establishment and operation of the FFEL program
Federal and Operating Funds. To achieve our objective, we compared findings from 11 OIG
audit reports to Financial Partners program review results at eight of nine guaranty agencies the
�




Control Number ED-OIGIA 05-D0010                                                        Page 9

OIG visited. Each guaranty agency was selected for a stand-alone audit. A list of the guaranty
agencies and the report dates is attached. We interviewed Financial Partners staff regarding the
new review guide they are using for the current series of guaranty agency program reviews. We
conducted our work periodically in our regional office from December 2002 to March 2003 . We
provided exception reports to Financial Partners and OPE on Februa°y 25, 2003 . We performed
our audit in accordance with generally accepted government auditing standards appropriate to the
scope of review described above.

The OIG issued individual audit reports to each guaranty agency. The OIG also issued two
additional audit reports to the Department that discussed issues identified during two guaranty
agency audits . The objective of eight ofthe audits was to determine whether the guaranty agency
complied with the HEA and regulations governing the establishment and operation of the Federal
and Operating Funds. One audit only reviewed the guaranty agency's establishment of its
Federal and Operating Funds. Each audit's scope is in the individual audit reports.



                 STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the Department's management control structure applicable
to its oversight of guaranty agencies' establishment and operation of the FFEL program Federal
and Operating Funds. Instead of assessing controls, we compared OIG audit findings to
Financial Partners program review results. Our comparison identified the issues discussed in the
AUDIT RESULTS section .
�




Control Number ED-OIGIA05-D0010                                     Attachment A

                        Oversight Issues Related to Guaranty Agencies'

                        Administration of the Federal Family Education

                          Loan Program Federal and Operating Funds



                    OIG REPORTS FOR GUARANTY AGENCIES AUDITED

OIG                Auditee
                          OIG    OIG      Financial

Control                                              Report Report   Partners

Number                                               Type   Date     Program

                                                                     Review Report
                                                                     Date
A05-A0002          Great Lakes Higher Education      Final  03/30/01 None
                   Corporation
A05-AO025          Internal                          Final  03/30/01 Not applicable
A05-AO028          Illinois Student Assistance       Final  03/30/01 01/16/03
                   Commission

A05-B0007          Michigan Guaranty Agency          Final  09/25/01 07/10/01

A05-B0033          United Student Aid Funds, Inc.    Final  04/23/02 03/06/02

A09-B0016          Oregon Student Assistance         Final  05/09/02 04/16/01

                   Commission

A07-B0002          National Student Loan Program     Final  09/27/02 11/01/01

A05-00014          Educational Credit Management     Final  03/18/03 11/28/01

                   Corporation
 A05-D0001         Internal                          Final  03/20/03 Not applicable
 A09-00013         California Student Aid Commission Final  03/27/03 10/22/01
~A07-00009         Colorado Student Loan Program     Final  07/23/03 04/05/01




 8 For more details, see the specified reports.
�




Control Number ED-OIGIA05-D0010                                                                                           Attachment B




                                UNITED STATES DEPARTMENT OF EDUCATION

                                             OFFICE OF POSTSECONDARY EDUCATION r

                                                          .N 2 6 M
                                                                                                       THE ASSISTANT SECRETARY


         Mr. Richard J. Dowd
         Regional Inspector General for Audit
         U.S . Department ofEducation
         Office of Inspector General
         111 N. Canal Street, Suite 940
         Chicago, IL 60606

         Dear Mr. Dowd :

         Thank you for the opportunity to review and comment on the draft audit report, "Guaranty
         Agencies' Administration of the Federal Family Education Loan Program Federal and Operating
         Funds," Control Number ED-OIG/A05-D0010, issued May 12, 2003 . Although your office
         provided this draft audit report separately to both the Office of Postsecondary Education (OPE)
         and the Office of Federal Student Aid (FSA), we have combined our respective offices' response
         in this letter.

         Issue 1 - FSA's Monitoring of Guaranty Agencies Needs Improvement

         FSA disagrees with several of the statements presented by the Office of Inspector General (OIG)
         concerning its oversight of guaranty agencies . For example, Financial Partners (FP) staff' has
         performed several program reviews of guaranty agencies within the past several years. FP
         program reviews and OIG audits are somewhat different in scope and objectives . For example,
         FP program reviews generally do not last as long as OIG audits and the OIG's scope is more
         detailed inasmuch as data gathering and analyses can last up to six months.

         With the advent of the new Guaranty Agency (GA) funding model and the 1998 Amendments to
         the Higher Education Act (HEA), FP has conducted several guaranty agency program reviews.
         First, FP staffconducted Technical Assistance reviews. The purpose of these limited scope
         reviews was to visit guaranty agencies, work with their staffand respond to technical and
         regulatory questions or concerns due to the new GA funding model. Second, FP conducted
         "Funds Reviews" which concentrated on the creation of the Federal Fund and Operating Fund
         only . These, too, were limited scope reviews. Moreover, FP prepared a Guaranty Agency Funds
         Review guide that was used during each review.

          Currently, as part of FSA's Enhanced Monitoring and Oversight Performance Objective, FP is
          conducting Guaranty Agency Comprehensive reviews of all thirty-six guaranty agencies.
          Eighteen reviews will be conducted in fiscal year 2003 'and the remaining eighteen in fiscal year
          2004. These comprehensive reviews will cover all of the items in the draft FP Guaranty Agency
          Comprehensive Guide, including conflict of interest and collections issues. It is important to




                                                   1990 K STREET, N.W . WASHINGTON, D.C. 20DD6
                       Ourmissionis to enaun equal access to education and to aromote educational excellence dvovahout the Nation.
Control Number ED-OIGIA 05-D0010                                                                 Attachment B




         Page 2 - Mr . Richard J. Dowd

         note that FP conducts as much pre-planning as possible prior to going on site (i. ., loan samples
         and documents are sent electronically to the program reviewers by the guaranty agencies) .

         In some cases, FP provided copies of its reports to the OIG if the audit preceded the FP program
         review. Likewise, FP program review reports disclosed some of the same issues as the OIG. In
         instances where the OIG audit preceded FP program reviews, FP limited their scope to avoid
         duplication and redundancy.

         With respect to the adequacy of the draft FP Guaranty Agency Comprehensive Review guide, FP
         will update, add or delete review elements as needed. Recommendations from the OIG on
         specific items or criteria are also welcome.

         Recommendation 1

          1.1 FP will work with the OIG to revise and/or amend areas as needed in the FP Draft
              Comprehensive Guide. In addition, FP solicits assistance from the OIG to participate in the
              reviews in order to provide accounting and audit expertiseAraining.

          1.2 Currently FP's Comprehensive reviews are for a two-week period . There is much pre­
              planning on the part of the review team and electronic data is requested prior to the team
              going on-site. Additional time on-site at the agency maypose staffing issues (with staff
              being away from office), reallocation of duties, etc. Hence, FP will determine the impact of
              extending the on-site review time .

          1 .3 FP has already taken action and prepared a review schedule to review all of the thirty-six
               guaranty agencies. As stated earlier, eighteen agencies are scheduled in fiscal year 2003 and
               the remaining are scheduled forthe following year.

          Issue 2 - Instructions on Federal Assets and Usage Fees Needed

          As a part of the program reviews, FP has determined which agencies are paying usage fees and
          whether the calculation is reasonable . Most agencies are paying usage fees on federal assets and
          those that arenot have submitted proposals to purchase the federal assets . FP has strongly
          encouraged guaranty agencies to make a good faith effort to pay usage fees .

          Nevertheless, OPE and FSA agree with the OIG that guaranty agencies need instructions and
          guidance concerning the disposition of federal assets and the calculation of usage fees.

          Recommendation 2

          2.1 OPE agrees that some generalized guidance should be issued, however, the methodology
              should be flexible in order to work with each agency on a case-by-case basis. Each agency
              has different issues and should be handled accordingly.
Control Number ED-OIGIA05-D0010                                                               Attachment B




         Page 3 - Mr. Richard J. Dowd

         2.2 FP has identified all federal assets at each guaranty agency during program reviews. When
             OPE issues the guidance, FP will ensure that each agency is in compliance.

         Again, we appreciate the opportunity to comment on the draft report .


         Sincerely,



                                                                     Theresa S. Shaw
                                                                     Chief Operating Officer, FSA
